HHS/OIG-AUDIT--OIG Partnership Plan: Drug Delivery System for Montana's Medicaid Program (A-06-96-00072)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Office of Inspector General's Partnership Plan: Drug Delivery System for
Montana's Medicaid Program," (A-06-96-00072)
December 4, 1996
Complete
Text of Report is available in PDF format (420 kb). Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This review of the Drug Delivery System for Montana's Medicaid Program for State
Fiscal Years (FY) 1994 and 1995 was conducted by the Montana Legislative Auditor
(MLA) as part of our partnership efforts with State Auditors to expand coverage
of the Medicaid program. The objectives of the review were to (1) identify the
Department of Public Health and Human Services' (Department) procedures to achieve
cost savings in the acquisition and delivery of drugs and (2) determine if a mail
order delivery system would be more cost effective.
As part of the review, the Office of Audit Services assisted the MLA by providing
technical support through the Medicaid Partnership Plan. In addition, we have performed
sufficient work to satisfy ourselves that the attached MLA audit report can be
relied upon and used by the Health Care Financing Administration in meeting its
program oversight responsibilities.
The MLA determined that the Department had adequate procedures in place to contain
costs in the acquisition and delivery of drugs. The Department averted approximately
$980,000 in annual program expenses at annual costs of approximately $590,000.
In addition, the Department has collected over $5 million in manufacturers rebates
in FY 1994 and 1995. The MLA concluded that another type of drug delivery system
does not appear to be more cost effective than the current system. Since the MLA
had no recommendations for corrective actions, an attachment with a listing of
the coded recommendations will not be prepared.
We plan to share this report with other States to encourage their participation
in our partnership efforts.